HHS/OIG-Audit--"Review of Partial Hospitalization Services and Fiscal Year 1997 Cost Report--New Center Community Mental Health Services, Detroit, Michigan, (A-05-00-00004)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Partial Hospitalization Services and Fiscal Year 1997 Cost
Report--New Center Community Mental Health Services, Detroit, Michigan,"
(A-05-00-00004)
June 21, 2000
Complete Text of Report is available in PDF format
(1.72 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that, based on a statistical sample, the
New Center claimed an estimated $1.1 million for partial hospitalization program
(PHP) services to Medicare patients that were not reasonable, necessary, or
appropriate for the patients' conditions as determined by medical review personnel,
and $71,478 for noncovered items in its Fiscal Year 1997 cost report. We recommended
financial adjustments totaling approximately $1.2 million. We also recommended
that New Center work with the fiscal intermediary to: (1) establish policies
to ensure that PHP services provided to Medicare beneficiaries meet Medicare
requirements, and (2) establish nonreimbursable cost centers or otherwise exclude
costs related to noncovered items from its cost reports.